C'OCKLE

2311 Douglas Street .
Omaha, Nebraska 68102-1214 Legal B tics

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-

MICHAEL WOOD AND MARY WOOD,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8505 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of October, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Borman | Keme Qthoa Qndian bh ble

My Comm. Exp. September 5, 2023
Notary Public

 

 

Affiant 40239
